CERTIFICATE OF SERVICE
Petitioner hereby gives notice that on this
10th day of August, 2020, he served via first class
mail, three copies of Rickey Nelson Jones’ Petition
for Writ of Certiorari on counsel for Respondent:
Michele McDonald, Assistant Attorney General,
Chief Counsel, Courts & Judicial Affairs Division,
Office of the Attorney General, 200 St. Paul Place,
20th Floor, Baltimore, MD 21202.

Rickey Nelson Jones
Rickey Nelson Jones
Law Offices of Reverend
Rickey Nelson Jones,
Esquire
3rd Floor – Suite 5
1701 Madison Avenue
Baltimore, Maryland 21217
410-462-5800
joneses003@msn.com
Counsel of Record for Petitioner

